No. 20A96

In The

Supreme Court of the United States
DANVILLE CHRISTIAN ACADEMY, INC., ET AL., Applicants,
v.
ANDY BESHEAR, GOVERNOR OF KENTUCKY,
Respondent.
TO THE HONORABLE BRETT M. KAVANAUGH, ASSOCIATE JUSTICE OF THE UNITED STATES
SUPREME COURT AND CIRCUIT JUSTICE FOR THE SIXTH CIRCUIT

CERTIFICATE OF COMPLIANCE
I, Joseph R. Palmore, a member of the Bar of this Court and counsel for the amici on the
accompanying Motion by Church-State Scholars, with Attached Proposed Amicus Curiae Brief
in Support of Respondent, for Leave (1) to File the Brief; (2) in an Unbound Format on 8½-by11-inch Paper, and (3) Without Ten Days’ Advance Notice to the Parties, certify under Supreme
Court Rules 33.1(b) and 33.1(h) that the motion contains 350 words and the brief contains
5,441 words, excluding the parts that are exempted by Rule 33.1(d), and both have been
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes.
/s/ Joseph R. Palmore
Joseph R. Palmore

